1a
APPENDIX A
IN THE SUPREME COURT OF THE
STATE OF IDAHO
Docket No. 46145
STATE OF IDAHO,
Plaintiff-Appellant,

)
)
)
)
v.
)
)
)
KARI JANAE PHIPPS, )
Defendant-Respondent. )

Boise, June 2019
Term
Opinion filed:
December 20, 2019
Karel A. Lehrman,
Clerk

Appeal from the District Court of the First Judicial District of the State of Idaho, Kootenai
County. Richard S. Christensen, District
Judge. Clark A. Peterson, Magistrate Judge.
The order of the district court is reversed and
the case is remanded.
Lawrence G. Wasden, Idaho Attorney General, Boise, for Appellant. Kenneth K. Jorgensen argued.
Kootenai County Public Defender’s Office,
Coeur d’Alene, for Respondent. Tyler R. Naftz
argued.
MOELLER, Justice.
The State appeals from the Kootenai County district court’s reversal of the magistrate court’s order
denying Kari Janae Phipps’s motion to suppress.

2a
Phipps asserted below that the statements she made
while detained during a routine parole search of a parolee’s residence, along with the evidence found as a
result of her statements, were inadmissible on Fourth
Amendment grounds. The State brings this appeal
seeking to delineate the authority of parole officers to
detain a non-parolee while performing a routine parole search of a parolee’s residence. For the reasons
stated below, we reverse the district court’s decision
and hold that the limited detention of Phipps was reasonable.
I.

FACTUAL AND PROCEDURAL
BACKGROUND

On November 18, 2016, Officer Kuebler and Officer Johnson from the Idaho Department of Correction performed a routine residence check on parolee
Terry Wilson. Upon their arrival, the officers knocked
on the apartment door and Wilson answered. As the
officers entered, they noticed Phipps exit from a back
bedroom. The officers recognized Phipps from previous visits. The officers asked Phipps and Wilson to
take a seat in the living room while they “cleared the
bedrooms for other persons.” Officer Johnson testified
that, although Phipps never asked to leave at that
time, she was not “cleared to leave. . . . [b]ecause of
procedure.”
After ensuring there was no one else in the apartment, Officer Kuebler advised Phipps and Wilson that
a drug dog would be brought in to aid in the search of
the residence and asked whether there was anything
in the apartment that they should know about. Phipps
confessed to having a methamphetamine pipe in her
backpack, which was on her person. Officer Kuebler
proceeded to conduct a full search of the residence and

3a
found two safes containing drugs underneath a bed in
a back bedroom. The officers called backup law enforcement to handle the drugs. At some point prior to
the arrival of backup, the officers ascertained that
Phipps had no outstanding warrants. 1
Approximately ten to twenty minutes later, Officer
Hutchison from the Coeur d’Alene Police Department
arrived. Officer Hutchison talked with Phipps separately in a back bedroom after he read Phipps her Miranda rights. When asked whether she had a methamphetamine pipe in her backpack, Phipps confirmed
that she did. Officer Hutchison searched Phipps’s
backpack and found the methamphetamine pipe. Consequently, Officer Hutchison issued Phipps a citation
for possession of drug paraphernalia.
On January 12, 2017, Phipps moved to suppress
the methamphetamine pipe and her statements regarding the pipe. At the suppression hearing, Officer
Kuebler was asked why he detained Phipps, to which
he explained, “[w]hen we enter a residence, we require
that everybody stays in the living room until we clear
the residence for officer-safety reasons.” Officer
Kuebler further explained,
The officers’ testimony regarding the timeline of events differs
in several respects, resulting in a different recitation of the facts
between the magistrate court and the district court. Nevertheless, we adopt the findings of the magistrate court where, as
here, they are supported by substantial and competent evidence.
See Pelayo v. Pelayo, 154 Idaho 855, 858, 303 P.3d 214, 217 (2013)
(“The Supreme Court reviews the trial court (magistrate) record
to determine whether there is substantial and competent evidence to support the magistrate’s findings of fact and whether
the magistrate’s conclusions of law follow from those findings.”
(quoting Bailey v. Bailey, 153 Idaho 526, 529, 284 P.3d 970, 973
(2012))).
1

4a
[W]e’re entering a residence where people
are on felony probation, and the people that
necessarily hang out there, a lot of times we
find felony warrants or other drugs so we -we don’t want to have individuals leaving,
coming back -- knowing where we’re at in
the residence, coming back with intentions
to harm an officer.
Officer Johnson similarly testified that the detention
was “[d]epartment procedure to ensure officer safety.”
When asked whether there was any suspicion of
wrongdoing prior to the search of the residence, Officer Kuebler testified that they did not believe the parolee violated any terms or conditions of his parole;
that they did not suspect he had any drugs in his
apartment; and that they did not suspect he was illegally possessing a firearm. As for Phipps, Officer
Johnson testified that he did not believe Phipps was
violating any law at the time. The magistrate court
found this to be the case as well: “She didn’t appear to
be armed or dangerous. They didn’t see anything
about her person that would justify a Terry stop or
search of her person.” Therefore, the court found that,
prior to Phipps’s statement to the parole officers regarding the methamphetamine pipe, “there [was] no
individual probable cause to hold or detain Ms.
Phipps.” Rather, “Ms. Phipps was simply a person
merely present during a p[arole search] . . . to check a
residence.”
After the suppression hearing, the magistrate
court orally pronounced its findings of fact and conclusions of law. After analyzing cases from the U.S. Supreme Court and Ninth Circuit Court of Appeals, the

5a
court concluded that there is no legal difference between a search pursuant to a search warrant and a
search pursuant to a parole waiver; in either case, law
enforcement may detain all individuals found on the
premises. Therefore, the court held that when parole
officers are conducting a lawful parole search, they
may detain and question all persons present, regardless of whether they have reasonable suspicion or
probable cause, which is what the officers did in this
case. Accordingly, the magistrate court denied
Phipps’s motion to suppress.2
On March 27, 2017, Phipps entered a conditional
guilty plea, reserving the right to appeal the magistrate court’s denial of her motion to suppress. On May
5, 2017, Phipps appealed the magistrate court’s denial
of her motion to suppress to the district court.
On appeal, the district court reversed the magistrate court’s denial of Phipps’s motion to suppress.
The court held that parole officers may not detain nonresidents found on the premises during a lawful parole search unless the officers have probable cause or
reasonable suspicion. The court explained that “[i]n
the case of a valid search warrant, . . . the probable
cause determination provides a nexus between an individual’s presence at the location and the suspected
criminal activity, rendering detention of individuals
present reasonable.” However, that same nexus “does
not exist when law enforcement arrives at a parolee’s
residence to perform a routine search pursuant to
standard conditions of parole” and the individuals
The magistrate court initially held that officers may detain all
persons, but then elaborated that officers may detain them in order to “determine if this is in fact [their] residence prior to the
determination of any criminal activity.”
2

6a
“are not parolees nor residents of the home but are
merely present at a parolee’s residence when law enforcement arrives.” Accordingly, the district court
held that Phipps was unlawfully seized and suppressed the evidence of the methamphetamine pipe
and the statement regarding the pipe under the exclusionary rule. The State timely appealed.
II.

STANDARD OF REVIEW

“On appeal of a decision rendered by the district
court while acting in its intermediate appellate capacity, this Court directly reviews the district court’s decision.” State v. Chernobieff, 161 Idaho 537, 539, 387
P.3d 790, 792 (2016) (quoting In re Doe, 147 Idaho 243,
248, 207 P.3d 974, 979 (2009)).
[T]he Supreme Court reviews the trial court
(magistrate) record to determine whether
there is substantial and competent evidence
to support the magistrate’s findings of fact
and whether the magistrate’s conclusions of
law follow from those findings. If those findings are so supported and the conclusions
follow therefrom and if the district court affirmed the magistrate’s decision, we affirm
the district court’s decision as a matter of
procedure.
Pelayo v. Pelayo, 154 Idaho 855, 858, 303 P.3d 214,
217 (2013) (quoting Bailey v. Bailey, 153 Idaho 526,
529, 284 P.3d 970, 973 (2012)). “Thus, this Court does
not review the decision of the magistrate court.” Id. at
859, 303 P.3d at 218. “Rather, we are ‘procedurally
bound to affirm or reverse the decisions of the district
court.’ ” Id. (quoting Bailey, 153 Idaho at 529, 284 P.3d
at 973).

7a
“The standard of review of a suppression motion is
bifurcated.” State v. Mullins, 164 Idaho 493, 496, 432
P.3d 42, 45 (2018) (quoting State v. Watts, 142 Idaho
230, 232, 127 P.3d 133, 135 (2005)). “When a decision
on a motion to suppress is challenged, the Court accepts the trial court’s findings of fact that are supported by substantial evidence, but freely reviews the
application of constitutional principles to the facts as
found.” Id. (quoting State v. McNeely, 162 Idaho 413,
414–15, 398 P.3d 146, 147–48 (2017)).
III.

ANALYSIS

The State asks this Court to reverse the district
court’s decision, which reversed the magistrate court’s
denial of Phipps’s motion to suppress. The State contends that it is reasonable for officers conducting a parole search of a parolee’s residence to detain third parties on the premises because the government’s interest in conducting the parole search outweighs the burden caused to any third parties during the limited detention. The State relies on the U.S. Supreme Court’s
decision in Michigan v. Summers, 452 U.S. 692 (1981)
to support its position. Phipps contends that the government’s interests do not outweigh the detention
when the detainee is a non-resident.
In assessing the validity of Phipps’s detention, we
initially note three undisputed facts essential to defining the scope of this Court’s analysis. First, there is no
dispute concerning the officers’ authority to enter and
search the apartment. The parolee consented to suspicionless searches of his person and residence as a
condition of his parole. Second, Phipps’s initial detention qualifies as a seizure for purposes of the Fourth
Amendment. The State does not contend otherwise
and the record shows that Phipps was not free to leave

8a
the residence. Third, the officers conceded that they
did not have reasonable suspicion or probable cause to
initially detain Phipps. Once again, the State does not
contend otherwise and the record shows that neither
officer believed Phipps to be armed or dangerous or
involved in any wrongdoing. Therefore, the dispute
now before this Court involves only the constitutionality of a suspicionless detention of a third party during a routine parole search. This is an issue of first
impression for this Court.
“The Fourth Amendment to the United States
Constitution protects ‘[t]he right of the people to be
secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures.’ ” State
v. Bishop, 146 Idaho 804, 810, 203 P.3d 1203, 1209
(2009) (quoting U.S. CONST. amend. IV). “Like the
Fourth Amendment, the purpose of Art. I, § 17 [of the
Idaho Constitution] is to protect Idaho citizens’ reasonable expectation of privacy against arbitrary governmental intrusion.” State v. Albertson, 165 Idaho
126, ___, 443 P.3d 140, 143 (2019) (quoting State v.
Christensen, 131 Idaho 143, 146, 953 P.2d 583, 586
(1998)). Thus, the reasonable expectation of privacy
inherent within the Fourth Amendment has not only
been incorporated under the Due Process Clause of
the Fourteenth Amendment to apply to the states, see
Mapp v. Ohio, 367 U.S. 643 (1961), but it has also been
recognized within the Idaho Constitution. 3
Although Phipps argued in her motion to suppress and briefing
below that Art. I, § 17 of the Idaho Constitution affords her
greater protection than that provided under the Fourth Amendment to the U.S. Constitution, see State v. Thompson, 114 Idaho
746, 751, 760 P.2d 1162, 1167 (1988), Phipps abandoned that issue on appeal. Instead, Phipps essentially argues that her rights
under state law are coextensive with her rights under federal
3

9a
Generally, in order to be reasonable under the
Fourth Amendment, “an official seizure of the person
must be supported by probable cause, even if no formal arrest is made.” Summers, 452 U.S. at 696 (citing
Dunaway v. New York, 442 U.S. 200, 204 (1979)).
However, the U.S. Supreme Court has recognized that
“some seizures significantly less intrusive than an arrest have withstood scrutiny under the reasonableness standard embodied in the Fourth Amendment.”
Id. at 697 (citing United States v. Brignoni-Ponce, 422
U.S. 873 (1975); Adams v. Williams, 407 U.S. 143
(1972); Terry v. Ohio, 392 U.S. 1 (1968)). “In these
cases the intrusion on the citizen’s privacy ‘was so
much less severe’ than that involved in a traditional
arrest that ‘the opposing interest in crime prevention
and detection and in police officer safety’ could support the seizure as reasonable.” Id. at 697–98 (quoting
Dunaway, 442 U.S. at 209).
Although this case presents an issue of first impression for Idaho, the law in this area has been developing nationwide over the last four decades. In
1981, the U.S. Supreme Court recognized that a valid
search warrant “implicitly carries with it the limited
authority [for law enforcement officers] to detain the
occupants of the premises while a proper search is
conducted.” Summers, 452 U.S. at 705. In Summers,
the police had a warrant to search a residence for narcotics. Once they arrived, they encountered Summers
leaving. The police asked Summers to help them gain
law, citing Summers and its progeny as authoritative and controlling. Similarly, the district court’s decision below was based
solely on Fourth Amendment considerations. Therefore, because
we have not been asked to determine whether the Idaho Constitution grants additional protections not found in the Fourth
Amendment, we will not address that issue.

10a
access to the residence and detained him while they
searched the premises. After finding narcotics in the
basement and determining that Summers owned the
residence, the police arrested him, searched his person, and found an envelope containing heroin. Summers was subsequently charged with possession of a
controlled substance. Summers moved to suppress the
evidence “as the product of an illegal search in violation of the Fourth Amendment.” Id. at 693–94.
In Summers, the dispute before the U.S. Supreme
Court involved the “constitutionality of a pre-arrest
‘seizure’ ” that was “unsupported by probable cause.”
Id. at 696. As previously noted, the U.S. Supreme
Court has recognized that there are some seizures
that, although covered by the Fourth Amendment, are
permitted because they “constitute such limited intrusions on the personal security of those detained and
are justified by such substantial law enforcement interests that they may be made on less than probable
cause.” Id. at 699. In deciding whether the seizure fell
within the general rule or the exception, the Court
“examine[d] both the character of the official intrusion
and its justification.” Id. at 700.
As for the character of the intrusion, the Court observed that it is “[o]f prime importance . . . that the
police had obtained a warrant to search respondent’s
house for contraband.” Id. at 701. “A neutral and detached magistrate had found probable cause to believe
the law was being violated in that house and had authorized a substantial invasion of the privacy of the
persons who resided there.” Id. The Court also noted
that the detention “was less intrusive than the search
itself” and “[wa]s not likely to be exploited by the officer or unduly prolonged in order to gain more infor-

11a
mation, because the information the officers seek normally will be obtained through the search and not
through the detention.” Id. Further, because the detention was in the respondent’s own residence, “it
could add only minimally to the public stigma associated with the search itself and would involve neither
the inconvenience nor the indignity associated with a
compelled visit to the police station.” Id. at 702.
As for the justifications of the intrusion, the Court
articulated three: (1) “the legitimate law enforcement
interests in preventing flight in the event that incriminating evidence is found”; (2) “the interest in minimizing the risk of harm to the officers”; and (3) “the
orderly completion of the search” as the detainees’
“self-interest may induce them to open locked doors or
locked containers to avoid the use of force.” Id. at 702–
03. Over a strong dissent, the majority held that “a
warrant to search for contraband founded on probable
cause implicitly carries with it the limited authority
to detain the occupants of the premises while a proper
search is conducted.” Id. at 705. 4
4 Although this Court has not had the opportunity to discuss
Summers in any context, the Idaho Court of Appeals has addressed it several times. See State v. Reynolds, 143 Idaho 911,
155 P.3d 712 (Ct. App. 2007); State v. Pierce, 137 Idaho 296, 47
P.3d 1266 (Ct. App. 2002); State v. Kester, 137 Idaho 643, 51 P.3d
457 (Ct. App. 2002). In Pierce and Kester, the court was dealing
with a search warrant and conducted an ad hoc balancing test to
uphold the legality of the detention. Our holding today not only
extends Summers to parole and probation searches, but also reiterates that an officer’s authority to detain incident to a search
is categorical, “it does not depend on the ‘quantum of proof justifying detention or the extent of the intrusion to be imposed by
the seizure.’ ” Muehler, 544 U.S. at 98 (quoting Summers, 452
U.S. at 705 n.19). As for Reynolds, the only case of the three specifically dealing with a probation search, the court did not reach

12a
In 2005, the U.S. Supreme Court confirmed that
Summers created a categorical rule: “An officer’s authority to detain incident to a search is categorical; it
does not depend on the ‘quantum of proof justifying
detention or the extent of the intrusion to be imposed
by the seizure.’ ” Muehler v. Mena, 544 U.S. 93, 98
(2005) (quoting Summers, 452 U.S. at 705 n.19).
“Summers makes clear that when a neutral magistrate has determined police have probable cause to believe contraband exists, ‘[t]he connection of an occupant to [a] home’ alone ‘justifies a detention of that
occupant.’ ” Id. at 99 n.2 (quoting Summers, 452 U.S.
at 703–04). Muehler also recognized that officers are
permitted to ask general questions of detainees as
long as the detention is not “prolonged by the questioning.” Id. at 101. Accordingly, the officers in that
case did not need reasonable suspicion or probable
cause “to ask Mena for her name, date and place of
birth, or immigration status.” Id.
Here, the district court held that Summers only applies to the detention of an occupant when the search
is conducted pursuant to a search warrant. While the
court’s ruling is a logical reading of Summers, it does
not take into account more recent decisions that have
extended Summers to circumstances where a search
warrant was not issued. See, e.g., Sanchez v. Canales,
574 F.3d 1169, 1175 (9th Cir. 2009) overruled on other
grounds by United States v. King, 687 F.3d 1189 (9th
Cir. 2012) (parole and probation searches); People v.
Rios, 122 Cal.Rptr.3d 96, 106 (Ct. App. 2011) (probation search); United States v. Enslin, 327 F.3d 788,
the question of whether law enforcement officers can constitutionally detain individuals found on the premises of a lawful probation search because Reynolds was not on the premises being
searched so Summers was inapplicable.

13a
796–97 (9th Cir. 2003) (consent search to execute an
arrest warrant); Hovington v. State, 616 A.2d 829, 832
(Del. 1992) (arrest warrant).
Of most significance to this case, is the Ninth Circuit Court of Appeals’ extension of the Summers rule
to permit the limited detention of “the occupants of a
home during a parole or probation compliance
search.” Sanchez, 574 F.3d at 1173. In Sanchez, probation officers began conducting random probation
compliance checks on all probationers with prior arrests for robbery living within the area in response to
an increase in robberies. Oscar Sanchez was one of
those probationers. Records indicated that Sanchez
was living at his parents’ house. As it turned out, however, Sanchez was incarcerated in state prison at the
time. After the officers arrived, they made the occupants—Sanchez’s parents, sister, and nephew—wait
outside while they conducted a search of the home for
Sanchez. After about an hour of searching, the officers
were unable to locate Sanchez and allowed the family
back inside the home. Id. at 1171–72.
Sanchez’s family filed a suit against the officers
under 42 U.S.C. § 1983, claiming that their detention
was unconstitutional. Id. at 1172. The officers moved
for summary judgment based on qualified immunity.
Id. The district court denied summary judgment on
the unconstitutional detention claim, reasoning that
“Supreme Court and Ninth Circuit case law did not
authorize Officers to detain ‘third parties’ on the
premises while conducting a probation compliance
search.” Id. The district court held that Muehler was
inapplicable “because the Sanchez home was subject
to a warrantless probation compliance search,
whereas ‘important to the analysis in Muehler was the
presence of a search warrant.’ ” Id. at 1174.

14a
On appeal, the Ninth Circuit Court of Appeals reversed the district court, holding that “officers may
constitutionally detain the occupants of a home during a parole or probation compliance search.” Id. at
1173. The court reasoned that the three justifications
set forth in Muehler—as originally established in
Summers—are present in every valid home search,
whether or not the search is supported by a warrant:
“[T]he law should always be concerned to prevent the
flight of criminals, ensure officer safety, and facilitate
orderly completion of valid searches—warrant or no
warrant.” Id. at 1174. Moreover,
Given that police officers may search the
home of a parolee or probationer “without a
warrant” and without “run[ning] afoul of the
Fourth Amendment” so long as “the officers
have [probable cause to believe] that they
are at the address where . . . the parolee . . .
resides,” Motley, 432 F.3d at 1079, there is
no need to be concerned that a neutral magistrate had not approved the reasonableness
of the compliance search. See generally
Samson, 547 U.S. at 848 (“[P]arolees . . .
have severely diminished expectations of
privacy by virtue of their status alone.”);
Motley, 432 F.3d at 1080 (implying limitations on the “the interest of third parties”
who are co-occupants of a parolee’s home).
Just as in a search pursuant to a search warrant, therefore, “it is constitutionally reasonable to require [the occupant of a home]
to remain while officers of the law execute a
valid [probation compliance] search.” Summers, 452 U.S. at 704–05.
Id.

15a
The holding in Sanchez clearly extends Summers
to parole and probation searches. We find there are
sound reasons for this “because the character of the
additional intrusion caused by detention is slight and
because the justifications for detention are substantial,” notwithstanding the absence of a search warrant. Muehler, 544 U.S. at 98 (citing Summers, 452
U.S. at 701–05). As for the character of the intrusion,
it is generally the same whether the individual is detained during the execution of a search warrant or a
parole search. That is, the detention is “surely less intrusive than the search itself,” is “not likely to be exploited . . . because the information the officers seek
normally will be obtained through the search and not
through the detention,” and bears “neither the inconvenience nor the indignity associated with a compelled visit to the police station.” Summers, 452 U.S.
at 701–02.
Moreover, the governmental interests outlined in
Summers apply with the same force to parole and probation searches as they do with searches pursuant to
a search warrant. As previously noted, there are three
overarching law enforcement interests whenever officers legally search a residence: (1) “preventing
flight”; (2) “minimizing the risk of harm to the officers”; and (3) “the orderly completion of the search.” Id.
at 702–03. “[T]he law should always be concerned to
prevent the flight of criminals, ensure officer safety,
and facilitate orderly completions of valid searches—
warrant or no warrant.” Sanchez, 574 F.3d at 1174
(citing Muehler, 544 U.S. at 98). The reasons for this
are obvious. First, there is always the possibility that
an occupant will take flight in order to avoid any implication of wrongdoing. “If police officers are concerned about flight, and have to keep close supervision

16a
of occupants who are not restrained, they might rush
the search, causing unnecessary damage to the property or compromising its careful execution.” Bailey v.
United States, 568 U.S. 186, 198 (2013). Therefore,
“[a]llowing officers to secure the scene by detaining
those present . . . prevents the search from being impeded by occupants leaving with the evidence being
sought or the means to find it.” Id. Second, officers visiting a parolee’s home run a substantial risk of harm
from unknown individuals leaving and reentering the
home. Finally, if occupants are permitted to wander
around the residence, there is the possibility that they
may interfere with the execution of the parole search
by “hid[ing] or destroy[ing] evidence, seek[ing] to distract the officers, or simply get[ting] in the way.” Id.
at 197. These risks are present in all residence
searches, warrant or no warrant, and the government’s interests in preventing these risks outweigh
the slight intrusion associated with the detention. Accordingly, we find no meaningful difference between
the detention of occupants present during the execution of a search warrant and the detention of occupants present during a routine parole or probation
search.
The district court’s decision in this case suggests
that the detention should be limited to identifying
new persons arriving and remaining on the premises
during the parole search; any non-residents should
then be permitted to leave. We decline to limit Summers in such a way. Requiring officers to check identification and determine whether each occupant is a
resident or non-resident will be cumbersome, time
consuming, distracting, and ultimately lead to prolonging the period of detention. Given the highly transient nature of many people’s living arrangements, it

17a
would frequently prove impossible to ascertain a person’s current residence from the information they
have on hand. Further, allowing individuals to come
and go defeats the underlying justifications of the
Summers rule—i.e., safety and efficiency. These concerns are present whether the occupant is a resident
or not.
Additionally, as the U.S. Supreme Court acknowledged in Muehler, officers can ask general questions
of Summers detainees as long as the detention is not
“prolonged by the questioning.” 544 U.S. at 101.
“[E]ven when officers have no basis for suspecting a
particular individual, they may generally ask questions of that individual; ask to examine the individual’s identification; and request consent to search his
or her luggage.” Id. (internal citations omitted) (quoting Florida v. Bostick, 501 U.S. 429, 435 (1991)). Accordingly, when an individual is being lawfully detained during such a search, their rights under the
Fourth Amendment are not infringed by an officer’s
questioning, even if unrelated to the detention or the
search. Therefore, we conclude that based on the holdings in Summers, Muehler, and Sanchez, officers have
the categorical authority to detain all occupants of a
residence incident to a lawful parole or probation
search and to question them as long as the detention
is not prolonged by the questioning. In holding to the
contrary, the district court erred. 5
In this case, the district court similarly weighed the justifications outlined in Summers; however, the court looked to the specific facts of the case rather than to the nature of parole and probation searches in general—i.e., the court conducted an ad hoc
analysis rather than a categorical one. See Muehler, 544 U.S. at
98 (“An officer’s authority to detain incident to a search is categorical.”).
5

18a
The record establishes that the officers in this case
were conducting a routine parole search of a parolee’s
residence when they detained Phipps as she was exiting a bedroom. The officers made Phipps and the parolee sit in the living room as they conducted a search
of the residence. Phipps’s detention was therefore permissible under Summers because she was present
during a lawful parole search of a parolee’s residence. 6
Moreover, the officer’s questioning did not constitute
an independent Fourth Amendment violation. Prior to
the full search of the residence, an officer posed a single question to both Phipps and the parolee, asking
whether there was anything in the apartment that
they should know about before they searched. Phipps
immediately responded that she had a methamphetamine pipe in her backpack. There is nothing in the record to suggest that the officer impermissibly prolonged the search by asking this single question prior
to commencing the full search. Therefore, based on
Summers and its progeny, we hold that the limited detention of Phipps was reasonable under the Fourth
Amendment. 7

This case is distinguishable from our recent opinion in State v.
Maxim, No. 45950, 2019 WL 6519992, at *1 (Idaho Dec. 4, 2019),
where we declined to condone a warrantless entry and search of
a home on the basis that law enforcement later discovered the
owner of the home was on probation and had waived his Fourth
Amendment rights.

6

This case is distinguishable from our recent opinion in State v.
Maxim, No. 45950, 2019 WL 6519992, at *1 (Idaho Dec. 4, 2019),
where we declined to condone a warrantless entry and search of
a home on the basis that law enforcement later discovered the
owner of the home was on probation and had waived his Fourth
Amendment rights.

7

19a
IV.

CONCLUSION

For the reasons discussed above, the district court
erred in reversing the magistrate court’s order denying Phipps’s motion to suppress. Accordingly, we reverse the district court’s order. This matter is remanded to the district court with instructions to reinstate the magistrate court’s order and remand the
case to the magistrate court for further proceedings
consistent with this opinion.
Chief Justice BURDICK, and Justices BRODY,
BEVAN and STEGNER CONCUR.

20a
APPENDIX B
IN THE DISTRICT COURT OF THE
FIRST JUDICAL DISTRICT OF THE
STATE OF IDAHO, IN AND FOR THE
COUNTY OF KOOTENAI
[filed June 7, 2018]
STATE OF IDAHO,
Plaintiff/Respondent,
v.
KARI JANAE PHIPPS,
Defendant/Appellant.
I.

)
)
)
)
)
)
)

Case No. CR 16-22188
Memorandum Decision
and Order on Appeal

INTRODUCTION

Defendant conditionally pled guilty to possession
of drug paraphernalia following the denial of Defendant’s motion to suppress. Defendant appeals the denial of her motion to suppress, contending that the
warrantless seizure of her person was unlawful and
without legal justification and that the physical evidence obtained and the statements made to law enforcement were the result of the unlawful seizure.
II.

FACTS

Probation officers performed a residence check on
a felony parolee. Tr., pp. 9-10. The parolee consented
to a search of his residence pursuant to the standard
conditions of parole. See id. at 10-11, 29. Probation officers had no suspicion of any criminal wrongdoing or
parole violations when they arrived to perform the
residence check. Id. 15-16.
When the officers arrived, Defendant was present
in the residence along with the parolee. Id. at 10-11.

21a
The parties stipulated to the fact that Defendant was
detained at the time probation officers entered into
the residence to conduct the search. Id. at 5-7. Defendant was not on felony probation at the time of the
search and there were no warrants for her arrest. Id.
at 37, 50. Although there was no testimony about
whether Defendant was a resident of the apartment,
the State’s briefing acknowledges that Defendant was
a visitor to the residence. See Respondent’s Brief, p. 3;
Appellant’s Brief, p. 1; see also Objection to Motion to
Suppress, p. 1. However, the probation officers on
scene were familiar with Defendant from her presence
during prior visits. Id. at 19, 33.
After drugs were found elsewhere in the residence,
local law enforcement was called. Id. at 11-12. Probation Officer Kuebler asked the individuals present if
there was anything else in the apartment and notified
them that a drug dog would be on scene if need be, at
which point Defendant stated that she had a meth
pipe in her backpack. Id. at 12.
Defendant moved to suppress the physical evidence found in her backpack and her statements to
law enforcement, contending that she was unlawfully
seized during the residence check. Defendant argues
that the physical evidence and her statements to law
enforcement were obtained as the result of her illegal
seizure. Defendant’s motion to suppress was denied,
and she now appeals.
III.

STANDARDS

The standard of review of a suppression motion is
bifurcated. When a decision on a motion to suppress
is challenged, the appellate court accepts the trial
court’s findings of fact that are supported by substan-

22a
tial evidence but freely reviews the application of constitutional principles to the facts as found. State v. Atkinson, 128 Idaho 559, 561, 916 P.2d 1284, 1286 (Ct.
App. 1996). At a suppression hearing, the power to assess the credibility of witnesses, resolve factual conflicts, weigh evidence, and draw factual inferences is
vested in the trial court. State v. Valdez-Molina, 127
Idaho 102, 106, 897 P.2d 993, 997 (1995); State v.
Schevers, 132 Idaho 786, 789, 979 P.2d 659, 662 (Ct.
App. (1999).
The Fourth Amendment to the United States Constitution prohibits unreasonable searches and seizures of persons or property. Searches or detentions
conducted without a warrant are presumptively unreasonable. Coolidge v. New Hampshire, 403 U.S. 443,
454–55, 91 S.Ct. 2022, 2031–32, 29 L.Ed.2d 564, 575–
76 (1971); State v. Butcher, 137 Idaho 125, 129, 44
P.3d 1180, 1184 (Ct.App.2002). The State may overcome this presumption by demonstrating that the
search or seizure fell within a well-recognized exception to the warrant requirement or was otherwise reasonable under the circumstances. State v. Martinez,
129 Idaho 426, 431, 925 P.2d 1125, 1130
(Ct.App.1996).
A seizure that implicates the Fourth Amendment
occurs when an officer, by means of physical force or
show of authority, restrains a citizen’s liberty. State v.
Ferreira, 133 Idaho 474, 479, 988 P.2d 700, 705
(Ct.App.1999). A seizure may take the form of either
an arrest or an investigative detention. An investigative detention is a seizure of limited duration to investigate suspected criminal activity and does not offend
the Fourth Amendment if the facts available to the officer at the time gave rise to reasonable suspicion to
believe that criminal activity was afoot. Terry v. Ohio,

23a
392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968); Ferreira, 133 Idaho at 479, 988 P.2d at 705; State v. Dice,
126 Idaho 595, 599, 887 P.2d 1102, 1106
(Ct.App.1994); State v. Knapp, 120 Idaho 343, 347,
815 P.2d 1083, 1087 (Ct.App.1991).
Evidence obtained in violation of the Fourth
Amendment is subject to the exclusionary rule, which
requires unlawfully seized evidence to be excluded.
E.g., Wong Sun v. United States, 371 U.S. 471, 484–
85, 83 S.Ct. 407, 9 L.Ed.2d 441 (1963); State v. Page,
140 Idaho 841, 846, 103 P.3d 454, 459 (2004). The exclusionary rule requires the suppression of both “primary evidence obtained as a direct result of an illegal
search or seizure, ... but also evidence later discovered
and found to be derivative of an illegality or ‘fruit of
the poisonous tree.’ ” Segura v. United States, 468 U.S.
796, 804, 104 S.Ct. 3380, 82 L.Ed.2d 599 (1984) (quoting Nardone v. United States, 308 U.S. 338, 341, 60
S.Ct. 266, 84 L.Ed. 307 (1939)); accord, e.g., Bishop,
146 Idaho at 811–12, 203 P.3d at 1210–11.
IV.

ANALYSIS

This appeal raises the issue of whether law enforcement may detain individuals found on the premises where a lawful parole (or probation) search is conducted pursuant to the parolee’s condition of parole
requiring the parolee to consent to searches by law enforcement. Idaho appellate courts have not yet addressed this issue. In State v. Reynolds, the Idaho
Court of Appeals recognized this unresolved issue, but
the Court of Appeals decided Reynolds on other
grounds. See State v. Reynolds, 143 Idaho 911, 916,
155 P.3d 712 (Ct. App. 2007).
In the context of a search pursuant to a warrant
issued by a neutral and detached judicial officer, the

24a
U.S. Supreme Court and the Idaho Court of Appeals
have held that police are allowed to detain individuals
present during the search, even without other reasonable suspicion that those individuals are involved in
criminal activity. Michigan v. Summers, 452 U.S. 692,
705, 101 S.Ct. 2587, 2595, 69 L.Ed.2d 340, 351 (1981);
State v. Kester, 137 Idaho 643, 646, 51 P.3d 457, 460
(Ct. App. 2002); State v. Pierce, 137 Idaho 296, 47 P.3d
1266 (Ct.App.2002).
In Summers, the U.S. Supreme Court held that
“[t]he connection of an occupant to that home gives the
police officer an easily identifiable and certain basis
for determining that suspicion of criminal activity justifies a detention of that occupant.” Summers, 452
U.S. at 703–04. The Court further reasoned that in a
search of a private home, “the additional intrusion
caused by detention is slight” while “the justifications
for detention are substantial.” Summers, 452 U.S. at
701–05. Those justifications include (1) “preventing
flight in the event that incriminating evidence is
found”; (2) “minimizing the risk of harm to the officers”; and (3) “facilitating the orderly completion of the
search ... [while] avoid[ing] the use of force.” Id. at
702-03; see also Muehler v. Mena, 544 U.S. 93, 125
S.Ct. 1465, 161 L.Ed.2d 299 (2005) (confirming Summers’s holding and also authorizing reasonable force
to detain occupants based on the circumstances).
In Sanchez v. Canales, 574 F.3d 1169 (9th Cir.
2009) (overruled on other grounds by United States v.
King, 687 F.3d 1189 (9th Cir. 2012)), the Ninth Circuit
held that detention of the occupants of a home during
a parole or probation compliance search was not a violation of the Fourth Amendment, relying heavily on
Summers and Meuhler. Sanchez, like Meuhler, was a
civil § 1983 case, but it evaluated the same Fourth

25a
Amendment principles applicable here—whether it
was reasonable to seize the occupants of a residence
while an authorized probation/parole residence check
is performed.
In the case of a valid search warrant, a judge has
necessarily determined that there is probable cause to
believe that evidence of criminal activity may be found
in that location. As reasoned in Summers, the probable cause determination provides a nexus between an
individual’s presence at the location and the suspected criminal activity, rendering detention of individuals present reasonable during the execution of the
warrant:
The existence of a search warrant, however,
also provides an objective justification for
the detention. A judicial officer has determined that police have probable cause to believe that someone in the home is committing a crime. Thus a neutral magistrate rather than an officer in the field has made the
critical determination that the police should
be given a special authorization to thrust
themselves into the privacy of a home. The
connection of an occupant to that home gives
the police officer an easily identifiable and
certain basis for determining that suspicion
of criminal activity justifies a detention of
that occupant.
Summers, 452 U.S. at 703–04.
However, that same nexus between an individual’s
presence and suspected criminal activity does not exist when law enforcement arrives at a parolee’s residence to perform a routine search pursuant to stand-

26a
ard conditions of parole rather than pursuant to probable cause. Although the Sanchez court reasoned that
that “parolees ... are more likely [than ordinary citizens] to commit future criminal offenses,” (see
Sanchez v. Canales, 574 F.3d at 1175 (quoting Samson
v. California, 547 U.S. 843, 853, 126 S.Ct. 2193, 165
L.Ed.2d 250 (2006))), this rationale should not extend
to justify seizures of individuals who are not parolees
nor residents of the home but are merely present at a
parolee’s residence when law enforcement arrives.
It would be unreasonable to subject an individual
to searches and seizures by law enforcement merely
based on their association with a parolee and would
run counter to the policy goals of parolees’ reintegration into society. In discussing whether a probation officer must actually request permission to search or
may enter unannounced, the Idaho Court of Appeals
recognized that the rights of persons associated with
a probationer or parolee and the policy objectives of
parole and probation should be considered,
One might reasonably argue that the purposes of probation would be better advanced
if [the condition] were interpreted as the
State suggests—to allow probation officers
to conduct unrestricted, unannounced
searches of a probationer’s residence. However, other societal interests support [the
probationer’s] interpretation of [the condition]. As the supreme court recognized in
Roman v. State, 570 P.2d 1235 (Alaska
1977), there is a price to be paid for adopting
a rule that probationers and parolees give
up all of their Fourth Amendment rights
simply because they are on probation or parole:

27a
Fourth amendment protection will be
diminished not only for parolees, but
also for the family and friends with
whom the parolee might be living.
Those bystanders may find themselves
subject
to
warrantless
searches only because they are good
enough to shelter the parolee, and
they may therefore be less willing to
help him—a sadly ironic result in a
system designed to encourage reintegration into society.
Roman, 570 P.2d at 1243 (quoting Note,
Striking the Balance Between Privacy and
Supervision: The Fourth Amendment and
Parole and Probation Officer Searches of Parolees and Probationers, 51 N.Y.U. L. Rev
800, 816 (1976)).
State v. Turek, 150 Idaho 745, 750, 250 P.3d 796, 801
(Ct. App. 2011) (quoting Joubert v. State, 926 P.2d
1191 (Alaska Ct. App. 1996)).
The U.S. Supreme Court has also held, “[i]n executing a search warrant officers may take reasonable
action to secure the premises and to ensure their own
safety and the efficacy of the search.” Los Angeles Cty.,
California v. Rettele, 550 U.S. 609, 614, 127 S.Ct.
1989, 1992, 167 L. Ed. 2d 974 (2007) (citing Meuhler,
544 U.S. at 98-100 and Summers, 542 U.S. at 704705). Ensuring police safety and the efficacy of the
search are equally applicable considerations in a parole search context as they are in the context of a valid
search warrant. As such, the three factors raised in

28a
Summers pertaining to officer safety and search efficacy should be evaluated in determining whether law
enforcement’s action was reasonable.
Justifications for the detention of individuals present when law enforcement arrives to search a parolee’s residence may include, (1) “preventing flight in
the event that incriminating evidence is found”; (2)
“minimizing the risk of harm to the officers”; and (3)
“facilitating the orderly completion of the search ...
[while] avoid[ing] the use of force.” Summers, 452 U.S.
at 702-03; see also Muehler, 544 U.S. at 98.
1. “preventing flight in the event that incriminating evidence is found”
The interest of “preventing flight in the event that
incriminating evidence is found” does not apply when
law enforcement arrives to conduct a parole search in
the same way that it does when law enforcement executes a search warrant. In the case of a search warrant, there is probable cause to believe incriminating
evidence will be found, and thus a corresponding increased risk that suspects present may attempt flight.
Flight and pursuit of criminal suspects entail real and
obvious safety risks to officers. In the case of a routine
parole search, there need be no pre-ordered suspicion
beyond the parole officer’s history with the parolee.
If there is reasonable suspicion that an individual
present at the parolee’s residence is actually involved
in criminal activity or presents a safety risk, then the
individual may be detained for further investigation.
Terry v. Ohio, 392 U.S. 1, 30, 88 S. Ct. 1868, 1884, 20
L. Ed. 2d 889 (1968). In this case, the parties stipulated that Defendant was detained upon law enforcement’s entry into the parolee’s apartment. See Tr.,
p. 7. When law enforcement arrived to perform the

29a
residence check, law enforcement had no suspicion
that the parolee was violating any terms or conditions
of his parole. Id. at 15-16. Upon arrival, law enforcement entered the resident with the parolee’s consent
and observed Defendant coming out of a bedroom with
a backpack. Id. at 29. Law enforcement then had Defendant sit in the living room with the parolee while
the search was conducted. Id. at 31-32. Law enforcement testified that Defendant was not “cleared to
leave” at that time “because of procedure.” Id. at 37.
While seated in the living room, Probation Officer
Kuebler asked the individuals present if there wasa
anything else in the apartment and notified them that
a drug dog would be on scene if need be, at which point
Defendant stated that she had a meth pipe in her
backpack. Id. at 12. When officers initially observed
Defendant, they did not see anything to indicate Defendant was armed. Id. at 34. Prior to the officer’s
statement regarding a drug dog, law enforcement admittedly had no reason to believe Defendant was violating any law or was about to commit a crime. Id. at
38. As such, law enforcement admitted that they did
not have any reasonable suspicion that Defendant
was involved in criminal activity or posed a safety risk
when Defendant was detained upon law enforcement’s entry. Therefore, the detention cannot be justified pursuant to Terry v. Ohio, 392 U.S. 1, 30, 88 S.
Ct. 1868, 1884, 20 L. Ed. 2d 889 (1968).
The detention of an individual on the basis that
she might flee if incriminating evidence is found,
without any suspicion that incriminating evidence
will be found or any reason to believe the individual
would in fact flee, is unreasonable. The individual’s
interest in avoiding seizure should prevail over the
state’s interest in preventing flight where there is no

30a
reasonable articulable suspicion of criminal wrongdoing by that individual.
2. “minimizing the risk of harm to the officers”
In Summers, the Court recognized that,
“[a]lthough no special danger to the police is suggested by the evidence in this record, the execution of
a warrant to search for narcotics is the kind of transaction that may give rise to sudden violence or frantic
efforts to conceal or destroy evidence.” Michigan v.
Summers, 452 U.S. 692, 702, 101 S. Ct. 2587, 2594, 69
L. Ed. 2d 340 (1981). However, at the point of law enforcement’s arrival in the case of a routine parole residence check, there is no analogous threat of sudden
violence or frantic efforts to conceal or destroy evidence because there need be no underlying probable
cause that evidence of criminal activity will actually
be discovered.
This Court recognizes officer safety dictates that
officers should at least be allowed to identify new persons arriving and remaining on the premises during a
search. However, officer safety concerns are not
served by preventing a visiting person from leaving
the premises, especially where, as here, at the time of
the detention, officers were familiar with Defendant
from prior visits (Tr., pp. 19, 33), there was no suspicion of any criminal activity by the parolee or by Defendant (Tr., pp. 15-16, 38), and the officers did not
perceive Defendant to pose a safety risk (Tr., p. 34).
3. “facilitating the orderly completion of the
search [while] avoid[ing] the use of force.”
In Summers and Meuhler, the U.S. Supreme Court
recognized that facilitating the orderly completion of

31a
the search while avoiding the use of force may be
served by the detention of persons present at a residence during the execution of a search warrant because “self-interest may induce them to open locked
doors or locked containers to avoid the use of force.”
Summers, 452 U.S. at 702-703; Meuhler, 544 U.S. at
1469-1470. However, in Summers and Sanchez, the
individuals detained were residents of the premises to
be searched. Summers, 452 U.S. at 694; Sanchez, 574
F.3d at 1171.
Defendant argues that “a non-resident is unlikely
to be able to help with officer completion of the search,
as it is improbable that she has keys or special access
to locked doors or containers.” The State argues that
the officers’ interest in conducting an orderly search
“would be severely hampered if occupants of the residence were free to come and go.” The State does not
explain how allowing someone to leave who was initially present, where there is no suspicion of criminal
activity and no perceived threat posed by the person,
would hamper an otherwise orderly search.
There is no evidence that this Defendant was able
to open safes or other locked containers or was able to
otherwise aid in completing the search and avoiding
the use of force. The State has provided no further justification for why a visitor of the residence must remain detained on-site to facilitate the orderly completion of the search. Thus, facilitating the orderly completion of the search while avoiding the use of force
does not justify the detention of visitors present when
law enforcement arrives to perform a parole residence
check.

32a
Therefore, concerns of search efficacy and officer
safety do not justify as reasonable the automatic detention of visitors present when law enforcement arrives to perform a residence check of a parolee.
Defendant was unlawfully seized when law enforcement arrived to perform the residence check. The
physical evidence and Defendant’s statements to law
enforcement were the direct result of such illegal seizure. Therefore, the exclusionary rule mandates that
the evidence obtained as a direct result of the illegal
seizure shall be suppressed.
V.

CONCLUSION

For the reasons set forth above, and upon facts specific to this case, the decision of the magistrate court
denying Defendant’s motion to suppress is
REVERSED.
SO ORDERED this 7th day of June, 2018.
/s/ Rich Christensen
Rich Christensen
District Judge

33a
APPENDIX C
IN THE DISTRICT COURT OF THE
FIRST JUDICAL DISTRICT OF THE
STATE OF IDAHO, IN AND FOR THE
COUNTY OF KOOTENAI
STATE OF IDAHO,
Respondent,
vs.
KARI JANAE PHIPPS,
Appellant.

)
)
)
)
)
)
)

Case No.
CR-2016-22188

TRANSCRIPT ON APPEAL
ATTORNEY FOR APPELLANT:

Tyler R. Naftz
Office of the Kootenai County Public Defender
Post Office Box 9000
Coeur d’Alene, ID 83816-9000
ATTORNEY FOR RESPONDENT:

Eileen Paul
Office of the City of Coeur Prosecuting Attorney
710 East Mullan Avenue
Coeur d’Alene, ID 83814
APPEAL FROM MAGISTRATE COURT OF THE FIRST
JUDICIAL DISTRICT OF THE STATE OF IDAHO IN
AND FOR THE COUNTY OF KOOTENAI
THE HONORABLE CLARK A. PETERSON PRESIDING

34a
***
[4] IN THE DISTRICT COURT OF THE
FIRST JUDICAL DISTRICT OF THE
STATE OF IDAHO, IN AND FOR THE
COUNTY OF KOOTENAI
STATE OF IDAHO,
Plaintiff,
vs.
KARI JANAE PHIPPS,
Defendant.

)
)
)
)
)
)
)

Case No.
CR-2016-22188

MOTION TO SUPPRESS
AT:

Kootenai County Courthouse
Coeur d’Alene, Idaho

ON:

Monday, February 13, 2017
10:50 a.m.

BEFORE: The Honorable Judge Clark A. Peterson
APPEARANCES:
For the State:
Eileen Paul
Office of the City of Coeur d’Alene
Prosecuting Attorney
710 East Mullan Avenue
Coeur d’Alene, ID 83814
For the Defendant:
Tyler R. Naftz
Office of the Kootenai County Public Defender
P.O. Box 9000
Coeur d’Alene, ID 83816-9000

35a
***
[54] THE COURT: Well, this is interesting. Why
don’t you folks tell me where you disagree, if at all,
with the Court. It appears there is no probable cause
of—or suspicion of criminal activity of any kind
whether officers entered the residence, that it was
done pursuant to consent, to probation, slash, parole
terms related to Mr. Wilson. When they entered, they
saw Ms. Phipps come out of a bedroom.
At that point they had no belief that criminal activity was afoot. They had nothing that they observed,
pursuant to your questions, Mr. Naftz, that would’ve
even justified a Terry detention at that time. She
didn’t appear to be armed or dangerous. They didn’t
see anything about her person that would justify a
Terry stop or search of her person.
[55] Pursuant to an officer-safety policy, they were
going to complete a sweep of the apartment to find out
who else was there, and they asked the individuals to
remain present in the living room. Though I didn’t
hear details on the sweep, my guess is the sweep is
phase one, and that was done, and then at some point
a statement was made—while there’s disputed evidence regarding the exact order of events, at some
point a statement was made regarding a drug dog is
going to be coming through, does anyone have any
items that you’re not supposed to have. Ms. Phipps allegedly indicated at that point that she had the methamphetamine pipe. However, one has to imagine that
would’ve occurred after any potential sweep to determine who else was present. No one else was present,
and then it seems also reasonable to believe that the
question would’ve occurred prior to a search of the residence, though there is some dispute as to the timing.

36a
Eventually the residence was searched, and a series
of safes was found.
At some point during this interaction identification
was gained. Also, one would imagine that would happen early on just for the purposes of identifying individuals; doesn’t make sense to leave unknown individuals there, and then the law enforcement [56] officer
indicated that by the time he arrived on scene the
meth pipe—the statement regarding the meth pipe
had been made. He did the search for the meth pipe,
and that by the time he arrived—he got I.D.s from law
enforcement, and he said the parole officers had already cleared them. In other words, there was no outstanding warrant; there was no felony probation for
Ms. Phipps.
Does everyone generally agree with that recitation
of facts and sort of the legal position? Ms. Paul, in particular?
MS. PAUL: I do, Your Honor. I don’t know if the
State—or sorry, the Court mentioned Miranda rights,
but yes, I agree.
THE COURT: And no one was Mirandized until
Officer Hutchison did that later, and certainly when
he arrived he had received information that was probable cause for him, but the question is that period of
time where, pursuant to policy with no suspicion of
criminal activity, she can be held, and then what requirements of Miranda are triggered regarding that
and what is that level of detention or encounter with
the citizens.
I don’t know that the issues were that sharpened
when the parties submitted their materials. Do you—
I think it would be interesting to me to permit you

37a
folks to have until, say, Friday close of [57] business,
you don’t have to write a brief, but to give the Court
or even send in a list of controlling authority, case law
for the Court to review to make the determination because I think this is a pretty interesting question.
It seems to me almost that—I don’t know that policy is sufficient to hold a citizen—if they can reasonably have their I.D.s checked, be cleared and released,
then that really needs to happen, and that any detention beyond that is improper detention, and if that detention is improper and gives rise to questioning, with
or without Miranda, that might be a basis for a suppression, but it’d be interesting to see if case authority
discusses this idea of further detaining for officer
safety, because it does seem there are some valid policy and safety reasons why even a person without any
suspicion of criminal activity can be held until that
search is concluded. Those persons may know other
individuals, may, if released, indicate, you know, officers are present, they’re searching, and that could
create a substantial officer-safety concern, but I think
the Court should be properly advised on these things
now that we’ve sort of finely tuned what the facts are.
Mr. Naftz, are there any other facts that you’re
asking the Court to find as a result of this [58] hearing
that you think bear upon the legal analysis?
MR. NAFTZ: No, Your Honor. I think just at that
one time that I think the Court pointed out that I.D.s
at some point were taken, more than likely early on.
That was the only thing that we were looking at. I
can’t think of anything else, Your Honor. Thank you.
THE COURT: All right. Thank you. Ms. Paul?

38a
MS. PAUL: No, Your Honor. I think that the
Court’s recitation does a good job of summarizing the
important evidence, and I appreciate the opportunity
to look further into refining our argument on those
points.
THE COURT: Though I didn’t hear clear evidence
on it, my belief is people would be essentially frozen,
the initial sweep would be done, then people would be
identified, and then a search would be conducted.
That seems the most reasonable course. You know,
we’re not going to wait for everybody to whip I.D. out
without knowing whether or not there are other persons in the residence, so I think law enforcement
would want to do that first, then we would identify
who we’re having contact with, and then we would
conduct the probation search, and they have a desire
to know also whether or not the persons that they’re
holding there briefly are subject to either warrant or
probation terms, et cetera, so the Court would likely
find that’s [59] the most reasonable order of circumstances and events here, so it would be enter, hold,
and at that point everyone’s in agreement that there
is no individual probable cause to hold or detain Ms.
Phipps, but she’s being held just for purposes of officer
safety while they do a sweep.
They found no other individuals. Mr. Wood apparently shows up at a later time, though that’s unknown, and then I believe the parties were I.D.’d and
then a search was conducted so—and it strikes me
that regardless of when they actually performed it,
probation has the capacity to review and clear citizens—regardless of what timing they chose to do it, it
appears they did that prior to the arrival of Coeur
d’Alene police so—

39a
MS. PAUL: You mean clear citizens for warrants,
Your Honor?
THE COURT: Um-hmm. It appears that—I believe
Office Hutchison when—he said that when I arrived I
got their I.D.s, they were handed to me by probation,
and they were—they had already been checked. So if
you’ll submit authority by—can you do it by close of
business Friday? Is that acceptable, Mr. Naftz?
MR. NAFTZ: Yes, Your Honor.
[60] THE COURT: Ms. Paul?
MS. PAUL: Yes, Your Honor.
THE COURT: All right. And again, it doesn’t have
to be a brief. If you just literally want to send in a list
of cases, please review these, I would appreciate that.
If you did want to send in a paragraph or two, that
would certainly be enlightening and helpful, but it
will be deemed under advisement then, and it will be
deemed submitted upon receipt of authority by Friday
at five o’clock, and the Court will then either set it for
an oral pronouncement or issue a short written decision, depending on which seems most appropriate.
Anything further, Mr. Naftz?
MR. NAFTZ: Nothing further, Your Honor. Thank
you.
THE COURT: Anything further, Ms. Paul?
MS. PAUL: No, Your Honor. Thank you.
THE COURT: All right. Thank you both. It’s a very
interesting issue. Look forward to seeing your guiding
case authority.
(Matter adjourned at 11:50 a.m.)

40a
[61] IN THE DISTRICT COURT OF THE
FIRST JUDICAL DISTRICT OF THE
STATE OF IDAHO, IN AND FOR THE
COUNTY OF KOOTENAI
STATE OF IDAHO,
Plaintiff,
vs.
KARI JANAE PHIPPS,
Defendant.

)
)
)
)
)
)
)

Case No.
CR-2016-22188

RULING ON MOTION TO
SUPPRESS/PRETRIAL CONFERENCE
AT:

Kootenai County Courthouse
Coeur d’Alene, Idaho

ON:

Friday, March 10, 2017
2:23 p.m.

BEFORE: The Honorable Judge Clark A. Peterson
APPEARANCES:
For the State:
Eileen Paul
Office of the City of Coeur d’Alene
Prosecuting Attorney
710 East Mullan Avenue
Coeur d’Alene, ID 83814
For the Defendant:
Tyler R. Naftz
Office of the Kootenai County Public Defender
P.O. Box 9000
Coeur d’Alene, ID 83816-9000

41a
***
[62] THE COURT: And Kari Phipps, 16-22188. Ms.
Phipps is present out of custody, Mr. Lambert on her
behalf. Ms. Paul is present. Mr. Naftz is not present,
but Mr. Lambert is here on her behalf. The matter’s
on for the Court’s decision on this matter and also for
a pretrial. I don’t know if the parties found a resolution and don’t need me to put my decision on the record or if you need me to put that on the record first.
What’s your—
MR. LAMBERT: We need the decision, Your
Honor.
THE COURT: All right. I thought you might feel
that way. First I want to commend everyone. I
thought it was an outstanding hearing and, not only
that, I was very, very pleased with the materials that
were provided both by the State and by the defense. I
thought they were very, very helpful.
Candidly, it was a question I had not researched. I
anticipated there being more of a distinction between
searches done pursuant to a warrant issued by a judge
where there was at least a judicial finding of probable
cause for criminal activity—I [63] thought there
would be some distinction between that really and
just sort of a probation enforcement search.
However—and I am not going to recite the facts. I
made the Court’s finding of the facts at the conclusion
of our hearing, the order in which I believe the events
occurred. In summary, Ms. Phips was simply a person
merely present during a probation—essentially a status search to check a residence. There was no belief of
criminal wrongdoing of any kind. She was present.

42a
She was detained. While the search was conducted for
officer-safety reasons, comments were made regarding a drug dog essentially. She then made a comment
that she had a methamphetamine pipe in her backpack. The backpack was subsequently searched by
law enforcement after she could easily have been identified and released. I think that’s all clearly conceded
facts by all parties.
However, the case authority that’s been presented
to me, while I appreciate Mr. Naftz’s materials, it appears clear that the United States Supreme Court
case law and also the Ninth Circuit case law, Sanchez,
et cetera, suggests that the same logic applies to probation searches of homes, even without articulable
suspicion of probable cause, is not different from that
of a search warrant, and that [64] officers may detain
persons. Therefore, her detention was not unlawful
and that the question here was not custodial interrogation triggering Miranda warnings, and therefore
her statements are not suppressible and, as a result,
neither is the search of the backpack.
I found it very interesting; there’s not clear Idaho
law on point. There’s analogous cases in Idaho of
course, but the Court I think is bound obviously by
United States Supreme Court precedent, and that’s
set forth, frankly, in the State’s materials and in the
defense’s materials, and then also by the controlling
Federal precedent from the Ninth Circuit.
I appreciate everyone’s, I thought, outstanding
submissions. Thank you very much. Again I was
somewhat surprised by the state of the law on that
topic, but I think the law requires that I deny the motion to suppress. I don’t find there’s a separate basis

43a
to believe that the Idaho Constitution provides additional protections beyond those in the United States
Constitution, but I certainly think this is an issue really that does need to be addressed by the Idaho Supreme Court to clarify the law in the state of Idaho.
Again, I think there’s analogous case law but not
directly on point: A probation search where a person,
just a third party, on a home search just simply [65]
to determine if this is in fact his residence prior to the
determination of any criminal activity the ability to
detain third parties. I do find though on the facts that
the detention here was relatively brief, unlike some of
the detentions that are authorized in the searches
that are at issue in the reported decisions, some of
which are two or three hours long, and as you balance
the intrusions here, I can understand why the
courts—those courts come to their conclusions, but
again, I’ll just state there is no evidence to suggest Ms.
Phipps was engaged in unlawful behavior and, nevertheless, the law I think compels this result, so I think
I’m forced to deny the motion.
Having made that decision, what’s the status of
the matter today?
MR. LAMBERT: Ask the Court to leave it set.
THE COURT: All right. Thank you. We will do so.
State, are you ready for trial?
MS. PAUL: Yes, Your Honor.
THE COURT: Thank you. And defense ready for
trial?
MR. LAMBERT: Yes, Your Honor, we are.

44a
THE COURT: Once again, thank you to the attorneys. Ms. Phipps, stay in contact with your counsel,
and the Court will see you on the 27th at 8:30.
[66] THE DEFENDANT: Okay. Thank you.
THE COURT: All right. Good luck to you folks.

